<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Kennedy, Feinstein, and 
Tester.

                     NUCLEAR REGULATORY COMMISSION

STATEMENT OF HON. KRISTINE SVINICKI, CHAIRMAN


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order.
    Today's hearing will review the Administration's fiscal 
year 2018 budget request for the U.S. Nuclear Regulatory 
Commission. It's the first of the subcommittee's four budget 
hearings this year. We'll have three more this month.
    Senator Feinstein and I will each have an opening 
statement. I'll then recognize each Senator for up to 5 minutes 
for an opening statement.
    We'll then turn to Chairman Kristine Svinicki to present 
testimony on behalf of the Nuclear Regulatory Commission. Then 
I'll invite Commissioner Baran and Commission Burns an 
opportunity to make a brief statement, if they'd like to do 
that. And then at the conclusion of that, I'll recognize 
Senators for 5 minutes of questions going back and forth.
    First, I'd like to thank our witnesses for being here. And 
let me say at the outset, thank you for working so well 
together and working so well with me and our staff, and I think 
that's true of Senator Feinstein as well, although I won't try 
to speak for her.
    There was a time a few years ago when there was dissension 
at the Nuclear Regulatory Commission, and it spilled over into 
our hearings and made life a little difficult, but I don't 
notice any of that now, and I appreciate the professionalism 
with which you have, that you demonstrate in your jobs, and the 
professionalism that you demonstrate in response to our 
oversight and our questions.
    And, of course, it almost goes without saying, but I don't 
want to go without it, what a privilege it is to serve with 
Senator Feinstein. She knows the subject, she has firm 
opinions, and she's effective in the work that she does, and 
having been a mayor, she knows how to make a decision.
    So we've been able to work very well together, and the best 
evidence of that, I think, was the fiscal year 2017 Energy and 
Water Appropriation bill, which in the midst of a swirl of 
partisanship and some budget issues, we were able to provide a 
record level of funding for the Office of Science and for the 
Corps of Engineers to continue to support supercomputing, to 
maintain our Nation's nuclear weapons, and to cut wasteful 
spending.
    So I simply want to express to Senator Feinstein once again 
what a privilege it is to have a chance to work with her as a 
partner in leading this committee.
    Senator Feinstein. Thank you.
    Senator Alexander. Our witnesses today include Kristine 
Svinicki in her first appearance before this Committee, as 
Chairman of the Commission. I want to mention President Trump 
nominated her to another term as Chairman. He's also nominated 
individuals to serve in the two remaining positions on the 
Commission. I hope they'll all be confirmed as soon as 
possible.
    Commissioner Jeff Baran is here. We welcome you, 
Commissioner Baran.
    And Commissioner Stephen Burns is here. We welcome you, 
Commissioner Burns.
    We're here to review the Administration's fiscal year 2018 
budget request for the U.S. Nuclear Regulatory Commission, the 
independent Federal agency response for regulating the safety 
of our Nation's commercial nuclear power plants and other 
civilian uses of nuclear material. The Nuclear Regulatory 
Commission's job is very important. It oversees our 99 nuclear 
reactors, which provide 20 percent of our Nation's electricity, 
and more than 60 percent of our carbon-free electricity.
    In my view, nuclear power is our best source of 
inexpensive, reliable, carbon-free base load power, and it is 
crucially important for our national security and 
competitiveness. My goal is to make sure that 5, 10, 25 years 
from now, we have an environment in which nuclear reactors can 
continue to be an important source of electricity for our 
country.
    The budget request for the Nuclear Regulatory Commission is 
$952 million. This is an increase of about 12 million from 
fiscal year 2017. This amount is offset by $814 million in fees 
paid by utilities and other facilities licensed to possess and 
use nuclear materials.
    To ensure nuclear power will continue to play a significant 
role in our Nation's electricity generation, I'll focus my 
questions, when I get to those, on four main areas. One, 
licensing facilities for used nuclear fuel and solving the 
nuclear waste stalemate. There's no issue that Senator 
Feinstein and I are united more on than solving the nuclear 
waste stalemate. Two, safely extending licenses for existing 
reactors. Three, licensing small modular and advanced reactors. 
And, four, making sure that the Commission's operating 
efficiently.


                        nuclear waste stalemate


    Taking those one by one, to ensure that nuclear power has a 
strong future, we've got to solve the 25-year-old stalemate on 
what to do with used nuclear fuel from our reactors. We need to 
find places to build geologic repositories and temporary 
storage facilities so the Federal Government can finally meet 
its legal obligation to dispose of nuclear waste safely and 
permanently. This year's budget request for the Nuclear 
Regulatory Commission includes 30 million, to restart the 
review of the Department of Energy's license application for 
the Yucca Mountain repository.
    I'll be asking the Commission to give us more detail on 
their plans for this proposed funding.
    I believe that Yucca Mountain can and should be part of the 
solution to the nuclear waste stalemate. Federal law designates 
Yucca Mountain as the Nation's repository for used nuclear 
fuel. And the Commission's own scientists have told us that we 
can safely store nuclear waste there for up to 1 million years. 
But even if we had Yucca Mountain open today, we would still 
need to look for another permanent repository. We have more 
than enough used fuel to fill Yucca Mountain to its legal 
capacity.
    So Senator Feinstein and I, along with leaders of the 
Committee on Energy and Natural Resources, Senator Murkowski, 
and then Senators Bingaman and Wyden, and now Senator Cantwell, 
have proposed to build and implement the recommendations of the 
President's Blue Ribbon Commission on America's Nuclear Future, 
which we're working to reintroduce this year.
    This legislation contemplates Yucca Mountain, and would 
create a new Federal agency to find additional permanent 
repositories and temporary facilities for used nuclear fuel. 
But the quickest and probably the least expensive way for the 
Federal Government to start to meet its used nuclear fuel 
obligations is for the Department of Energy to contract with a 
private storage facility for used nuclear fuel.
    The former Secretary of Energy, Secretary Moniz, told this 
subcommittee last year that the Department of Energy has 
existing authority to take title to used fuel and contract with 
a private company to store it. We'll have a conversation later 
this month with Secretary Perry about that issue, and we'll 
have it at the budget hearing on the Department of Energy.
    I understand two private companies have submitted 
applications to the Commission for consolidated storage 
facilities, one in Texas, one in New Mexico. I'll be asking 
some questions about that today, and I want to make sure that 
you have the resources that you need in fiscal year 2018 to 
review these applications.


                       subsequent license renewal


    Number two, safely extending licenses for existing 
reactors. Instead of just building windmills, which only 
produce 17 percent of our carbon-free electricity, or solar 
farms, which only produce 3 percent, the best way to make sure 
the United States has a reliable source of inexpensive, 
efficient, carbon-free electricity is to extend the licenses of 
the nuclear reactors that are already operating when it is safe 
to do so. Most of our 99 reactors have already extended their 
operating licenses from 40 to 60 years, and some utilities are 
planning to begin the process to extend these licenses from 60 
to 80 years.
    Last year the Commission told the subcommittee that it has 
developed the framework to examine applications to safely 
extend licenses beyond 60 years. I want to make sure you have 
the resources that you need to review any applications during 
2018.


                         new reactor licensing


    Third, licensing new reactors. In addition to the reactors 
we already have, the Commission also needs to be ready to 
review applications for new reactors, particularly small 
modular reactors and advanced reactors. These new technologies 
could represent the future of nuclear power. In 2017, we 
provided enough funding to complete the small modular reactor 
program at the Department of Energy, and NuScale, which was one 
of the technologies selected in that program, has now filed an 
application for design certification of a small reactor with 
the Commission.
    A utility group has been working with the Idaho National 
Laboratory to site a small modular reactor there. And the 
Tennessee Valley Authority has also submitted an application to 
the Commission for a permit at the Clinch River site for a 
small modular reactor. In addition to being ready to review 
applications for small modular reactors, I want to make sure 
the Commission is ready to review applications for advanced 
reactors.
    Fiscal year 2017 included $5 million to develop a 
regulatory infrastructure for advanced reactor designs, but the 
Commission didn't request funding for that in fiscal 2018. I'd 
like to know what the Commission plans to do with the funding 
Congress specifically provided for this effort, and why this 
year's budget request does not include any funding, if there's 
additional work to do.


                 efficient operation of the commission


    And, finally, making sure that the Commission's running 
efficiently, one of the Nuclear Regulatory Commission's 
challenges is ensuring that the agency is running effectively 
and focusing on the right goals. I'd like to thank the 
Commission for working so closely with Senator Feinstein and me 
over the past few years to reduce the Commission's budget to 
more closely reflect its actual workload, while maintaining its 
gold standard of safety.
    In fact, between fiscal year 2014 and 2017, we reduced the 
Commission's overall budget by $103 million, which represents 
about a 10 percent reduction. These savings are important 
because they lower the fees utilities must pay the Commission, 
and these savings can be passed on to the utilities' customers. 
These reductions haven't been arbitrary. In fact, the 
appropriations committee has only reduced the Commission's 
budget in areas that the Commission has identified as 
unnecessary to its important safety mission.
    While there's still more to be done, the Commission 
deserves credit for the important steps that you have taken to 
manage the agency more efficiently while maintaining safety. 
And I'd like to ask today if you plan to continue these 
efforts. I also look forward to working with the Commission as 
we've been putting together our Energy and Water Appropriations 
bill for fiscal year 2018.
    I now turn to Senator Feinstein for her opening statement.


                 statement of senator dianne feinstein


    Senator Feinstein. Thanks very much, Mr. Chairman.
    First of all, as you know, it's a great treat and pleasure 
and honor for me to work with you. I forget how many years 
we've been doing this, going back and forth, but it's been a 
very special relationship for me, and I want you to know that. 
And we've managed to work together and work out differences, 
and I've always felt that's the way the Senate should function. 
So I thank you for your partnership.
    My statement is a little bit different. We have in 
California two big nuclear facilities. One is run by Southern 
California Edison, a very large provider of power in Southern 
California, and the other by Pacific Gas and Electric up North. 
They are both decommissioning 40--each one, 4,400 megawatts of 
nuclear power. And the Southern California Edison's was over 
problems with a steam generator, and these problems 
metastasized so that they thought the best course of action was 
to decommission. So, today, about 3,300 plutonium rods sit in 
spent fuel pools, some of them going into dry casks, but with 
nowhere--no place to really put them safely. Southern 
California Edison is a little bit different. It set a time 
several years ahead, and it's going to slowly--it's not going 
to apply for re-licensing, and it's going to decommission its 
reactors as well.
    That, to me, was sort of a clue to take a look around the 
nuclear industry in America. And I just want to relay what we 
find.
    A bit of history, first.
    Ten years ago, this subcommittee was preparing for a 
Renaissance of nuclear power in the United States, and between 
2005 and 2010, we funded the $600 million nuclear power 2010 
program. The program took two reactor designs to the NRC 
(Nuclear Regulatory Commission) for licensing. And, today, 
there are four reactors being built in South Carolina and 
Georgia using one of those designs.
    Between 2005 and 2013, the subcommittee funded the $700 
million Next Generation Nuclear Plant Program that ended when 
industry didn't come forward with its cost share. In 2005, 
Congress authorized, and in 2007, first funded, the Loan 
Guarantee Program that is now being used to fund the 
construction of two reactors in Georgia.
    In 2008, the subcommittee began to significantly increase 
the Nuclear Regulatory Commission's budget, so as to 
accommodate the expected filing of 20 or more nuclear power 
plant construction applications. Today, only five such licenses 
have been granted. All of this was done with the strong support 
of the nuclear power industry.
    We can all look back on this history and marvel at how a 
technological breakthrough in natural gas extraction caused 
markets to shift so much that it killed the nuclear 
Renaissance. But the problems facing nuclear power are much 
more than the cheap cost of natural gas. Today, the nuclear 
power industry faces numerous plant closures, staggering cost 
overruns, and bankruptcy filings. It all leads me to wonder 
about the future of nuclear power. It used to be that an 
operating nuclear power plant was tremendously profitable. In 
the deregulated markets, that's no longer the case. The 
abundance of natural gas and renewable generation leave 
existing plants apparently unable to compete.
    It is my understanding that Exelon, the mass--the largest 
nuclear operator of plants, is insisting that their existing 
nuclear plants need subsidies or they will close them. And the 
company is seeking subsidies for its Three Mile Island plant in 
Pennsylvania. We now have 19 shut down reactors in this 
country. Another six will be shut down in the next 2 to 3 
years. The industry claims that even more will close without 
taxpayer subsidies.
    In the regulated markets, in places like Georgia and South 
Carolina, nuclear power appears to be too expensive to build. 
It's my understanding the Southern company and other utilities 
building two new reactors in Georgia now face schedule delays 
of 3 years and cost increases of more than three billion. 
Westinghouse, the main contractor on this project, has filed 
for bankruptcy because of the increases and delays.
    The utilities must now decide if they can complete 
construction of these nuclear power plants. The Georgia Public 
Service Commission must decide how much more burden can be put 
on ratepayers due to this poorly managed project.
    It's not just nuclear power projects, though, in Georgia 
and South Carolina that are behind schedule and massively over 
budget. This problem plagues other projects in the United 
States and also in foreign countries. In South Carolina, we 
have the MOX project. And you and I have talked about that for 
years, about its cost, that we were always going to do 
something, and so far we haven't. But that plant is designed to 
convert weapons grade plutonium into fuel for commercial 
nuclear power plants. This project was originally estimated to 
cost $4.7 billion, and be completed by last year. But the 
Department of Energy has already spent more than $5 billion. 
And the most recent cost estimate, the costs have ballooned to 
$17 billion, with a completion date in the late 2020s.
    And here's our problem: At current funding levels, $335 
million in fiscal year 2017, the Department of Energy says, 
this project will never be completed. So what are we going to 
do?
    Also, the French nuclear giant, AREVA, is building a 
nuclear reactor based in Finland. It's now expected to be 
completed 9 years late, at a cost three times its original 
three billion Euro estimate.
    So here we are today, the nuclear Renaissance has failed to 
materialize, and the future of the industry, I think, is highly 
questionable. So I would be most interested in any comments 
from the Nuclear Regulatory Commission about this, because what 
I see is now, as the Chairman has indicated, there's going to 
be a transition to modern small modular reactors, again, 
probably for reasons of efficiency and cost, needing to be 
gathered together at at least five in a place. And what happens 
to the waste? Where does the waste go? They're underground. 
What happens with the waste?
    So today we have 78 sites, and no place for nuclear waste. 
Now, maybe that's a symptom of what's happening to the 
industry. We don't seem to be able to get together. Give you an 
example. We work for years on a nuclear waste policy. Money is 
being collected, a lot of money, to be able to be helpful out 
there. Can't be spent. So we work with the Chairman and Ranking 
of the Energy Committee, three chairs now, we have a bill. It 
is all voluntary. And the NEI (Nuclear Energy Institute) 
doesn't support it.
    So I am increasingly coming to the position that what are 
we going to do? Is this going to be a failing industry? Is 
everybody just going to sit there and let it happen? Is there 
really no role? I have been to our plants in California. 
They're big plants, both PG&E and Southern California Edison, 
and they're going to be shutting down. And so we will be left 
with three places where we need to put nuclear waste.
    I talked to the new chairman of PG&E, and he says, ``Well, 
we're going to put everything in transportation casks because 
we hope you'll find a place for us to put the waste.'' And 
somehow, I mean, I don't understand, because what I see is a 
deterioration. What I see is a big downhill slope for the 
industry. And to some extent, by not cooperating, by not trying 
to work out problems so they're solutions, in my view, the 
industry is bringing it on themselves. And so I just decided 
after all these years of struggling, and you know how I feel 
about the small nuclear reactors, and I've acceded to you, and 
we've gone ahead with at least one area, but if we can't pass a 
nuclear waste bill, if we can't get an alternative for Yucca, 
when Nevada still remains opposed, and the House won't let us 
pass any pilot project, what happens is stasis.
    Now, I don't know whether that stasis affects this industry 
out there, but I would suspect it does. And it's very 
discouraging when you sit here year after year and you want to 
work with people, and you want to solve problems, and you think 
you're doing a good thing by putting together a nuclear waste 
bill that will enable the money that's been collected and being 
held--how much is it?
    Voice. $34 billion.
    Senator Feinstein. $34 billion?
    $34 billion, be able to spend it.
    And so I guess what you see is my frustration, being 
overwhelmed, because if I look out there, I don't see anything 
changing. And maybe it's clear that we can't have a good 
situation for nuclear waste, if we can't enable it to be built 
properly, if we can't handle the waste properly, if we can't 
see that timelines are kept.
    So I guess I have reached, Mr. Chairman, a level of real 
frustration. This is unlike any committee that I serve on, and 
you know I like it and I believe in it, and I believe in you. 
But, somehow, this industry has got to work with us to solve 
these problems and enable us, if we can't use Yucca, to find 
some place that we can, and have a place to put the waste and 
have policies that enable nuclear to have a role in this 
future, which I think is going to be a big future for low 
carbon power.
    So, anyway, I wanted to say these things, and I thank you.
    Senator Alexander. Thank you, Senator Feinstein.
    We'll now recognize Chairman Kristine Svinicki to provide 
her testimony on behalf of the Nuclear Regulatory Commission. 
We'll then turn to Commission Baran and Commission Burns for 
any statement they wish to make. And then Senator Feinstein and 
I will have some questions, and there may be other Senators who 
come who wish to do that, too.
    Chairman Svinicki.


              summary statement of hon. kristine svinicki


    Ms. Svinicki. Good afternoon, Chairman Alexander and 
Ranking Member Senator Feinstein.
    We have submitted a longer statement that I would ask be 
made part of the record, which I will summarize very briefly.


               summary of fiscal year 2018 budget request


    My colleagues and I appreciate the opportunity to appear 
before you today to discuss the U.S. Nuclear Regulatory 
Commission's fiscal year 2018 budget request. The NRC's mission 
is to license and regulate the civilian use of radioactive 
materials in the United States, to ensure adequate protection 
of public health and safety, and to promote the common defense 
and security. The resources we are requesting for fiscal year 
2018 fully support that mission. The NRC's 2018 budget request 
is $952 million, and 3,284 full-time equivalent employees or 
FTE. This request represents an increase from the fiscal year 
2017 enacted budget, due to the inclusion of $30 million for 
Yucca Mountain activities. At the same time, the NRC's fiscal 
year 2018 budget request represents a decrease of 48.3 million, 
including 311 fewer FTE when compared to the fiscal year 2017 
annualized continuing resolution budget. Consistent with the 
Omnibus Budget Reconciliation Act of 1990, the NRC plans to 
recover $814 million of this budget request from fees assessed 
to NRC licensees.


                            project aim 2020


    Since we last appeared before you, the NRC has continued 
its efforts to further enhance the efficiency of agency 
processes. Chief among these efforts is Project Aim 2020. In 
June of 2014, the NRC established Project Aim 2020 to enhance 
the agency's ability to plan and execute its mission in a more 
effective and efficient manner. The agency's efforts have 
resulted in reduction to the agency's budget through 
Commission-approved work activities that can be shed, deferred, 
or completed with fewer resources. Through these actions, the 
agency has decreased its size by more than 500 FTEs since 2014 
and is working on the implementation of additional actions to 
make these improvement efforts durable in the years beyond 
2018.


                     additional efficiency efforts


    Other efforts to improve efficiency and effectiveness, 
include establishing centers of expertise to increase our 
ability to respond quickly and effectively to current, 
emerging, and unanticipated work, ensuring Commission 
involvement early on in the rulemaking process before 
significant resources are expended, and continuous evaluation 
of the agency's internal structure as evidenced by the 
Commission's approval of the reorganization plan and the 
business case for the proposed merger of our Office of Nuclear 
Reactor Regulation and our Office of New Reactors by September 
30 of 2020. These and other similar initiatives are evidence of 
our commitment to operate in the most efficient and effective 
manner possible.
    I would now like to highlight just two portions of the 
NRC's fiscal year 2018 request.


                     nuclear reactor safety program


    The request for the Nuclear Reactor Safety Program, which 
is our largest budget item and includes both our operating 
reactors and new reactors programs, is approximately $467 
million, reflecting a decrease of $53 million, including a 
decrease of 214 FTE when compared to the 2017 annualized CR 
(continuing resolution). These requested resources reflect the 
completion of much of the agency's Fukushima related work and 
provide for the anticipated continued review of NuScale Power's 
design certification application for their small modular 
reactor, which is a first of a kind submission for our agency.


              nuclear materials and waste safety programs


    The fiscal year 2018 budget request for the agency's 
Nuclear Materials and Waste Safety Programs, which includes 
Fuel Facilities, Nuclear Materials Users, Spent Fuel Storage 
and Transportation, Decommissioning and Low-Level Waste, and 
High-Level Waste Programs, is $171 million, reflecting an 
increase of $22 million, including an increase of 19 FTE when 
compared to the fiscal year 2017 annualized CR budget. This 
increase is due to resources requested for the High-Level Waste 
Program, for activities associated with the proposed Yucca 
Mountain geologic repository. These resources total $30 
million, including 71 FTE.
    In closing, this budget request reflects our continuing 
efforts to achieve additional efficiencies while maintaining at 
the forefront public health and safety and the security of our 
Nation.
    On behalf of the Commission, I thank you for this 
opportunity and for your support of the vital mission of the 
NRC. And, Chairman Alexander, I appreciate and thank you for 
your acknowledgment of the collegiality with which we operate 
as a Commission. While we don't always agree, I think that we 
view collegiality as very separate and distinct from agreeing 
on any particular matter, and I would like to just thank both 
of my colleagues for working together so well in the abrupt 
change in chairmanship that we experienced earlier this year. I 
couldn't be joined by two finer colleagues, so thank you. And 
we're pleased to answer your questions.
    [The statement follows:]
            Prepared Statement of Hon. Kristine L. Svinicki
    Good afternoon, Chairman Alexander, Ranking Member Feinstein, and 
distinguished members of the Subcommittee. My colleagues and I 
appreciate the opportunity to appear before you today to discuss the 
U.S Nuclear Regulatory Commission's (NRC) fiscal year 2018 budget 
request.
    We appeared before this Committee in February of 2016, and 
committed to efficiencies in both corporate and programmatic areas. 
Today, I will focus on our accomplishments since then, including an 
update on our Project Aim initiative and ongoing efforts to improve the 
agency's rulemaking process.
    The NRC is an independent Federal agency established to regulate 
commercial nuclear power plants; research, test, and training reactors; 
nuclear fuel cycle facilities; and radioactive materials used in 
medicine, academia, and for industrial purposes. The agency also 
regulates the transport, storage, and disposal of radioactive materials 
and waste and the export or import of radioactive materials. The NRC 
regulates industries within the United States and works with agencies 
around the world to enhance global nuclear safety and security.
    The agency's statutory mission is to license and regulate the 
civilian use of radioactive materials in the United States, to ensure 
adequate protection of public health and safety, and to promote the 
common defense and security. The resources we are requesting for fiscal 
year 2018 fully support the NRC's mission while achieving resource 
savings and improving the agency's efficiency and effectiveness. The 
NRC's fiscal year 2018 budget request, including requested resources 
for the Office of the Inspector General (OIG), is $952 million and 
3,284 full-time equivalent (FTE) employees. This request represents an 
increase from the fiscal year 2017 enacted budget, due to the inclusion 
of $30 million for Yucca Mountain activities. At the same time, the 
NRC's fiscal year 2018 budget request represents a decrease of $48.3 
million, including 311 fewer FTE, as compared to the fiscal year 2017 
Annualized Continuing Resolution (CR) budget.
    The NRC's fiscal year 2017 total budget authority, excluding OIG 
resources, totals $928 million. This includes $905 million for Salaries 
& Expenses, plus direction to use $23 million in carryover. It does not 
include resources for Yucca Mountain activities.
    Reductions achieved through efficiency and effectiveness efforts 
are, however, partially offset by the cost of the budgeted FTE rate to 
accommodate salaries and benefits costs, including government wide pay 
and benefits increases. Despite a declining budget and staffing levels, 
the fiscal year 2018 budget fully supports the NRC's safety and 
security programs, and the agency's primary focus continues to be 
protecting public health and ensuring the long-term safety and security 
of nuclear materials and facilities.
    In fiscal year 2018, the NRC plans to recover $814 million of the 
fiscal year 2018 budget from fees assessed to NRC licensees. This would 
result in a net appropriation of $138 million, which is an increase of 
$19 million in net appropriations when compared with the fiscal year 
2017 annualized CR budget. The increase in the net appropriation is 
primarily due to the addition of $30 million for Yucca Mountain, which 
is excluded from fee recovery, and which requires an appropriation from 
the Nuclear Waste Fund.
    Before I discuss the specifics of the NRC's fiscal year 2018 budget 
request, please allow me to address the efforts that the agency has 
undertaken to improve our processes.
Project Aim
    The budget request reflects significant efficiencies initiated 
through Project Aim. In June 2014, the NRC established Project Aim to 
enhance the agency's ability to plan and execute its mission in a more 
effective and efficient manner. The Project Aim Report included 19 
tasks related to planning, processes, and personnel, with a goal to 
prepare the agency for the future. The agency has achieved a 
significant milestone by completing the major deliverables for each of 
the 19 Project Aim tasks.
    The agency's efforts have resulted in reductions to the agency's 
budget through the Commission approved work activities that can be 
shed, deferred, or completed with fewer resources.
    The agency is institutionalizing a common prioritization process to 
more readily prepare the agency to evaluate emerging work and is 
implementing an enhanced strategic workforce plan to reshape the 
workforce to meet current and future needs. As we proceed, the agency 
remains mindful of the importance of its highly skilled technical staff 
and the need to maintain our expertise. We must keep a focus on 
knowledge management as senior staff retire and new experts take their 
place, while we remain cognizant that the success of the agency is due 
to the quality and dedication of the agency's people.
    Through these actions, the agency continues to focus on resources 
while decreasing its size by more than 500 FTE since 2014. The fiscal 
year 2018 budget request reflects reductions of $48 million, including 
185 FTE, as a result of NRC's rebaselining efforts under Project Aim. 
In addition, it reflects reductions resulting from longer-term 
efficiencies and improvement projects, including savings in corporate 
support services.
    The agency is working on the implementation of additional actions 
to achieve longer-term efficiencies beyond fiscal year 2018, and the 
staff is implementing process efficiencies that will yield resource 
reductions through standardization or centralization of specific 
regional support staff functions. This includes a review of mission 
support functions to assess standardization and centralization 
opportunities. The agency has also made significant reductions in 
agency-wide supervisory resources and programmatic mission support 
resources.
    The agency will continue to enhance its effectiveness and 
efficiency beyond the completion of Project Aim tasks. The agency 
established Centers of Expertise (COE) within the agency's 
organizational structure to increase our ability to respond quickly and 
effectively to current, emerging, and unanticipated work. In addition, 
the Commission approved staff recommendations to implement process 
enhancements and re-baselining initiatives for its materials programs.
    The staff has also completed improvements to operating reactors 
licensing processes to enhance the predictability and efficiency of 
reviews while maintaining their effectiveness and quality. Furthermore, 
while several offices have completed internal restructuring to become 
more efficient and effective, the Commission approved the 
reorganization plan and the business case for the proposed merger of 
the Office of Nuclear Reactor Regulation and the Office of New Reactors 
by September 30, 2020.
Rulemaking
    The Commission has considered the agency's rulemaking program and 
has taken steps to ensure Commission involvement early on in the 
rulemaking process, before significant resources are expended.
    To accomplish this, the staff submits a rulemaking plan to the 
Commission for review and approval before the staff initiates activity 
on a rulemaking, apart from those rulemaking activities that are 
explicitly delegated to the staff.
    Each year the agency reviews ongoing and planned rulemaking 
activities to develop rulemaking program budget estimates and to 
determine the relative priority of these rulemaking activities. As part 
of this review, the agency may identify rulemakings that may no longer 
be needed to meet our key strategic goals of safety and security. For 
example, in May 2016, the Commission approved discontinuing 7 
rulemaking activities and deferring 2 rulemakings that were in the 
early stages of development.
    The discontinued rulemakings covered a variety of topics, and the 
basis to discontinue was different for each rulemaking. For example, 
one rule the Commission voted to discontinue was related to entombment, 
one of the decommissioning options available to commercial power 
reactors. Rather than conduct a separate rulemaking only for 
entombment, the Commission determined staff should conduct a single 
rulemaking to make the decommissioning process more efficient, open, 
and predictable by reducing the reliance on licensing actions, 
including license amendments and exemptions, to achieve a long-term 
regulatory framework that defines the requirements and decommissioning 
options for reactors.
    In March 2017, the NRC deployed a centralized tracking and 
reporting tool that provides real- time updates on all NRC rulemaking 
activities. Current rulemaking data is posted to the NRC website on our 
rulemaking pages.
Congressional Budget Justification Improvements
    The fiscal year 2018 Congressional Budget Justification reflects 
the NRC's efforts to improve the presentation of the budget request and 
to simplify comparisons between budget years. This document also 
demonstrates the agency's commitment to fee transparency. The chapter 
for each business line includes supplemental content such as workload 
tables and schedules to better align the budget and the resulting 
impact on fees. Content has also been expanded to include a synopsis of 
the agency's overall estimated fee recovery calculations to more 
clearly show the budget's impact on fee recovery.
Fiscal Year 2018 Budget Request
    I would now like to highlight specific portions of the fiscal year 
2018 budget request.
                         nuclear reactor safety
    The Nuclear Reactor Safety Program encompasses licensing, 
regulating, and overseeing civilian nuclear power reactors, research, 
test, and training reactors, and medical isotope production facilities 
in a manner that adequately protects public health and safety and 
includes international and research activities. Resources for the 
Nuclear Reactor Safety Program decreased by $53.3 million, including a 
decrease of 214.5 FTE, when compared to the fiscal year 2017 annualized 
CR.
Operating Reactors
    The Operating Reactors Business Line encompasses the regulation of 
99 operating civilian nuclear power reactors and 31 research, test, and 
training reactors. The NRC is requesting $368.1 million for operating 
reactors, including 1,546 FTE, which represents an overall funding 
decrease of $34.9 million, including 155.5 FTE, from the fiscal year 
2017 annualized CR. The decrease is the result of, for example, Project 
Aim activities as well as declines in the staff's Fukushima Near-Term 
Task Force Tier 1 work related to the Mitigating Strategies Order, 
flooding hazard reevaluations, and seismic hazard reevaluations, and 
the completion of Tier 2 and 3 work.
New Reactors
    The New Reactors Business Line is responsible for the regulatory 
activities associated with siting, licensing, and overseeing 
construction of new nuclear power reactors as well as addressing policy 
issues associated with small modular reactors and non-light water 
reactors.
    The fiscal year 2018 budget request for new reactors is $98.6 
million, including 432 FTE, which represents a funding decrease of 
$18.5 million, including 59 FTE, when compared with the fiscal year 
2017 annualized CR. This decrease is a result of Project Aim activities 
and the projected completion of the review of two combined license 
applications for Turkey Point and North Anna. In early January 2017, 
NuScale Power submitted the first design certification application for 
a small modular reactor. The agency has been in communication with 
NuScale since it completed a cooperative agreement for funding from the 
U.S. Department of Energy in 2014. In addition, to prepare for the 
future review of non-light water reactor applications, we have 
developed a vision and strategy document, which was most recently 
updated and made publicly available in December 2016.
                   nuclear materials and waste safety
    The Nuclear Materials and Waste Safety Program is responsible for 
licensing, regulating, and overseeing nuclear materials in a manner 
that adequately protects the public health and safety. Through this 
program, the NRC regulates uranium processing and fuel facilities, 
research and pilot facilities, and nuclear materials users such as 
medical, industrial, research, and academic uses. Additionally, through 
this program, the NRC regulates spent fuel storage, spent fuel and 
material transportation and packaging, decontamination and 
decommissioning of facilities, and low-level and high-level radioactive 
waste activities. The fiscal year 2018 budget request for this program 
is $171.1million, including 627 FTE. This funding level represents an 
overall funding increase of $22.4 million, including an increase of 
19.5 FTE, when compared with the fiscal year 2017 annualized CR budget. 
This increase is due to resources for the proposed Yucca Mountain deep 
geologic repository for spent nuclear fuel and other high-level 
radioactive waste--$30 million, including 71 FTE--that was not included 
in fiscal year 2017.
Fuel Facilities
    The Fuel Facilities Business Line is responsible for ensuring that 
fuel cycle facilities are licensed and operated in a manner that 
adequately protects public health and safety and promotes the common 
defense and security. The fiscal year 2018 budget request for fuel 
facilities is $25.2 million, including 114 FTE, which represents an 
overall funding decrease of $4.1 million, including 22 FTE, when 
compared with the fiscal year 2017 annualized CR. This decrease 
represents savings from Project Aim activities.
Nuclear Materials Users
    The Nuclear Materials Users Business Line supports the licensing 
and oversight necessary to ensure the safe and secure processing and 
handling of nuclear materials. The fiscal year 2018 budget request for 
nuclear materials users is $61.7 million, including 223 FTE, which 
represents a funding decrease of $3.5 million and 21 FTE when compared 
with the fiscal year 2017 annualized CR. The decrease is a result of 
Project Aim activities and additional process enhancements.
Spent Fuel Storage and Transportation
    The Spent Fuel Storage and Transportation Business Line supports 
the safe and secure storage of spent fuel, and the safe and secure 
transport of radioactive materials. These activities include licensing, 
oversight, rulemaking, international activities, research, and generic 
homeland security.
    The fiscal year 2018 budget request for spent fuel and 
transportation is $26.2 million, including 103 FTE, which represents a 
funding increase of $1.9 million and a FTE decrease of 4.0 when 
compared with the fiscal year 2017 annualized CR. Overall proposed 
resources increase in fiscal year 2018, and are partially offset by the 
agency's rebaselining of resources as part of Project Aim. In 
particular, a modest increase in resources is needed in fiscal year 
2018 to support the safety, security, emergency preparedness, and 
environmental reviews for two applications for consolidated interim 
storage facilities.
Decommissioning and Low-Level Waste
    The Decommissioning and Low-Level Waste Business Line supports 
licensing and oversight associated with the safe and secure operation 
of uranium recovery facilities, decommissioning of nuclear facilities, 
and disposition of low-level radioactive waste from all civilian 
sources. The Fiscal year 2018 budget request for decommissioning and 
low-level waste is $28 million, including 116 FTE, which represents an 
overall funding decrease of $1.9 million and 4.5 FTE when compared with 
the fiscal year 2017 annualized CR. The decrease largely reflects 
Project Aim activities.
High-Level Waste
    The High-Level Waste Business Line supports the NRC's activities 
for the proposed Yucca Mountain deep geologic repository for the 
disposal of spent nuclear fuel and other high-level radioactive waste 
using appropriations from the Nuclear Waste Fund. The fiscal year 2018 
budget request for high-level waste is $30 million, including 71 FTE. 
Resources would support continuation of the licensing proceeding, which 
would primarily consist of restarting the adjudication.
Corporate Support
    The NRC's corporate support involves centrally managed activities 
that are necessary for agency programs to operate and achieve goals 
more efficiently and effectively and includes acquisitions, 
administrative services, financial management, human resource 
management, information technology and information management, 
training, outreach, and policy support. As part of the agency's efforts 
to be more efficient, we have looked for ways to reduce costs 
associated with the delivery of corporate support services. The fiscal 
year 2018 budget requests $301.4 million and 616 FTE for Corporate 
Support, which is a reduction of $3 million, including 116 FTE, 
compared to the fiscal year 2017 annualized CR. As with all business 
lines, reductions are offset in fiscal year 2018 to accommodate actual 
salaries and benefits costs for the remaining FTE. In addition to 
absorbing an increase for salaries and benefits, the reductions are 
also offset by increases for rent escalations; operations and 
maintenance for core IT systems and infrastructure; targeted 
investments in development and modernization efforts; and for support 
of a full five member Commission.
Office of Inspector General
    The OIG's component of the fiscal year 2018 proposed budget is 
$12.9 million, of which $11.8 million is for auditing and investigation 
activities for NRC programs and $1.1 million is for the auditing and 
investigation activities of the Defense Nuclear Facilities Safety Board 
(DNFSB). These resources allow for the OIG to carry out the mission to 
independently and objectively conduct audits and investigations to 
ensure the efficiency and integrity of NRC and DNFSB programs and 
operations; to promote cost-effective management and to prevent and 
detect fraud, waste, and abuse.
                                closing
    In closing, this budget request reflects our continuing efforts to 
achieve additional efficiencies without sacrificing public health and 
safety, or the security of our Nation. Chairman Alexander, Ranking 
Member Feinstein and distinguished Members of the Subcommittee, this 
concludes my formal testimony. On behalf of the Commission, I thank you 
for the opportunity to appear before you. Thank you also for your 
support of the vital mission of the NRC. I would be pleased to respond 
to your questions. Thank you.

    Senator Alexander. Commission Baran, would you like to make 
a statement?
STATEMENT OF HON. JEFF BARAN, COMMISSIONER, U.S. 
            NUCLEAR REGULATORY COMMISSION
    Mr. Baran. Just briefly, if that's okay.
    Chairman Alexander, Ranking Member Feinstein, members of 
the subcommittee, thank you for the invitation to appear today. 
It's a pleasure to be here with my colleagues to discuss NRC's 
fiscal year 2018 budget request and the work of the Commission.
    Chairman Svinicki described the progress the agency is 
making in implementing Project Aim, which is our effort to take 
a hard look at what work the agency is doing and how we are 
doing that work. Last year, the NRC staff generated a list of 
151 proposals to reduce costs. The Commission approved nearly 
all of these proposals. Combined with declining workloads in 
some areas and extremely limited external hiring, these efforts 
have reduced our full-time employee levels by more than 12 
percent in just 2 years. We now have fewer employees than we 
did back in 2007, when the agency was in the midst of ramping 
up for the expected wave of new reactor applications.
    Some of the Project Aim cost reductions will be realized 
during fiscal year 2018 and 2019, including some further 
reductions in corporate support, but I think there's a strong 
case to be made that the agency will soon be correctly sized 
for our workload. We still have more work to do to ensure that 
we have the right skill sets in the right places and to 
internalize an enduring focus on efficiency. But I think we're 
approaching the right staffing level for the agency. When we 
level off, I think it is important for NRC to have sufficient 
resources to maintain NRC's core technical capabilities and a 
surge capacity so that we can handle significant unexpected 
work like the potential resumption of new reactor construction 
at Bellefonte.
    There are also many significant safety efforts underway at 
NRC, such as continued implementation of post-Fukushima safety 
enhancements, the decommissioning reactor rulemaking, and the 
exploration of options to increase the accountability of 
Category 3 sources. In addition, we have the staff's review of 
the NuScale small modular reactor design application, the 
docketing review of a license application for a consolidated 
interim storage facility in New Mexico, and the safety and 
environmental review of a separate application for a 
consolidated interim storage facility in Texas, which is 
temporarily on hold at the request of the applicant.
    We're happy to discuss these and any other issues of 
interest. Thank you, and I look forward to your questions.
    Senator Alexander. Thank you, Commissioner Baran.
    Commissioner Burns.
STATEMENT OF HON. STEPHEN G. BURNS, COMMISSIONER, U.S. 
            NUCLEAR REGULATORY COMMISSION
    Mr. Burns. Thank you, Chairman Alexander and Ranking Member 
Feinstein, and other members of the subcommittee. I'm very 
appreciative of the opportunity to appear before you today with 
my colleagues to discuss our fiscal 2018 budget request. I 
fully support the Chairman's testimony on behalf of the 
Commission today.
    I want to express my appreciation of the Committee for 
their support during my tenure as Chairman from January 2015 to 
earlier this year in January 2017. I think we had a very 
supportive and cooperative relationship during that time, and I 
think the Committee's input to us was invaluable. I also want 
to acknowledge the committee staff for their great efforts to 
work collaboratively with the agency and to communicate their 
concerns and feedback in a productive way.
    The fiscal 2018 budget proposal is, in my view, a 
continuation of our multi-year effort to conduct a meaningful 
reassessment of ourselves and to be responsible in executing 
our mission and our use of resources.
    As the Chairman has already indicated, the NRC has achieved 
a great many accomplishments since last year with respect to 
effectiveness and efficiency and improvements gained in our 
regulatory programs, corporate support, and rulemaking 
activities. And I think the 2018 budget reflects the fruits of 
those efforts, but a continuation going on.
    And I just have a final note, appreciation of the Chairman, 
her mention of the collegiality of the Commission. I think 
that's well evidenced by I think the fairly smooth handoff we 
had in the chairmanship earlier this year. And I've appreciated 
the opportunity to continue to support her in the leadership of 
this agency.
    Thank you again for the opportunity to appear before you, 
and I look forward to answering any questions you have. Thank 
you.
    Senator Alexander. Thank you, Commissioner.
    Now we'll begin a round of 5-minute questions, and we'll 
have as many Senators who would like. We welcome Senator 
Kennedy, we're glad he's here today, and Senator Tester I think 
will be coming back. There may be others.

                           SPENT NUCLEAR FUEL

    Let me pick up where Senator Feinstein left off. I think 
she gave a pretty--we don't exactly agree on nuclear power, but 
I think her survey history sounded right to me. I mean, we've--
and one of the problems we need to solve that we agree we need 
to solve is where to put used nuclear fuel. Now, there's $30 
million in the President's budget to move ahead with Yucca 
Mountain, and I want to get back to that probably in a second 
round of questions, but my examination of the options that we 
have, to move spent fuel out of California, or wherever it is, 
to some other place, suggests to me, that the fastest, least 
expensive place to do it would be in a private site, licensed 
by the Nuclear Regulatory Commission.
    I understand that--now, the spirit of the President's 
Commission, Blue Ribbon Commission on Nuclear Power, was that 
we should move ahead on all fronts. And so Senator Feinstein 
came up with the idea of an interim storage facility, and put 
it in the appropriations bill we did together, and we've done 
it three or four times now. The problem is the Senate will not 
approve new funding for Yucca Mountain, and the House won't 
approve new funding for anything else, and so we have a 
stalemate. So that's partly our fault. But we need support from 
the nuclear industry, for example, as Senator Feinstein says, 
for the position which we think is correct, which is that we 
should move ahead on all fronts. And if we can't move ahead 
temporarily on one, we should move ahead on the other, and keep 
trying on the one.

                     PRIVATE STORAGE OF SPENT FUEL

    So the one that I've got my eye on is the private--the two 
applications from private companies, to store used nuclear fuel 
from commercial sites around the country. One of these is in 
West Texas, one is in New Mexico. These would be temporary 
repositories until a permanent repository could be available to 
receive the waste.
    I understand these facilities can be licensed under your 
existing regulation, but the review process could take up to 3 
years. So let me ask you, Chairman Svinicki, how long will it 
take you to review these applications? And where are they 
today?
    Ms. Svinicki. Thank you, Chairman Alexander.
    The two applications are both pending before our agency. 
The application for the facility in Texas is submitted by Waste 
Control Specialists, or WCS. The WCS application was under 
review by our agency, when the applicant requested that we 
suspend work on that. It's not attributable to anything to do 
with our review. They have underway a business, I think an 
acquisition or a merger with another company, and they asked 
that we temporarily suspend our review activities. That's for 
the facility in Texas. The other facility in New Mexico is an 
application from Holtec. They submitted their application, but 
we are still in the phase of determining the docketing or 
adequacy of the completeness of the application for its review.
    We do as an agency stand by the estimate of 3 years. That 
is informed by one other private application of a similar 
nature, which was for a facility in Utah, and I believe that 
the environmental and safety review of that application took 
about the same amount of time. So that's the basis for our time 
estimate.
    Senator Alexander. Is the result of your review, if you 
approve it, does that mean they have a license?
    Ms. Svinicki. It means that they would have a license to 
receive and store spent nuclear fuel at those locations.
    Senator Alexander. So that would mean that as soon as they 
have a license to do that, they can--if the department--then 
their relationship moves to the Department of Energy, right? 
And the Department of Energy then takes title to fuel in 
California and puts it in the private facility; is that 
correct? Or is there some other interim step?
    Ms. Svinicki. It's not clear, and it's not a component of 
our safety review, the mechanisms of the business relationships 
that would provide for the movement of the fuel to the 
facility. I believe the holders of the fuel could reach 
arrangements to pay for the storage. There is also legislation, 
I believe, that's been introduced in the House of 
Representatives that would provide for DOE (Department of 
Energy) to have some role in funding the storage of the fuel, 
but that isn't a policy that's before our Commission.
    Senator Alexander. But, fundamentally, when you finish your 
work, if you approve the license, we then have a licensed 
facility ready to receive used nuclear fuel; is that correct?
    Ms. Svinicki. Yes.
    Senator Alexander. Right. And your job after that is, what? 
Monitoring for safety?
    Ms. Svinicki. Yes, of the operations there, and of its 
ultimate decommissioning at some point in the future.
    Senator Alexander. Do you have sufficient funds in your 
budget to do what you need to do if you--on both of these 
applications, should--this year?
    Ms. Svinicki. Yes. The fiscal year 2018 budget provides for 
the review of two such applications, and in the current fiscal 
year we had only budgeted for one review. With the suspension 
now, we have adequate funds. Should WCS come in and request 
that we lift the suspension of the review, and there are few 
remaining months in this fiscal year, we would reallocate 
resources to begin those activities again.
    Senator Alexander. So the answer would be yes----
    Ms. Svinicki. Yes.
    Senator Alexander [continuing]. To both of them----
    Ms. Svinicki. Yes.
    Senator Alexander [continuing]. Should both of them be 
available.
    Do you have any--so 3 years? Do you believe that we would 
be able to place used nuclear fuel in a private consolidated 
storage site more quickly than we would be able to place it in 
Yucca Mountain?
    Ms. Svinicki. I don't believe I can answer that question 
based on what we know today. It's uncertain what kind of legal 
challenges through a licensing adjudication might be posed to 
the consolidated storage facility. And I think that there are 
uncertainties that make it difficult for me to have a 
projection on which one would be quicker than the other.

                        YUCCA MOUNTAIN LICENSING

    Senator Alexander. You have $30 million in your budget for 
Yucca Mountain. What are the next steps on Yucca Mountain?
    Ms. Svinicki. There are three central pieces well described 
by the Government Accountability Office in their report in 
April for either DOE or NRC to reconstitute a capability should 
funds be provided to restart activities. I think of them as 
people, process, and infrastructure. In the case of NRC, a 
central question would be, are experts that worked on it 
previously available. If not, how can the human resource to 
support the expertise needed be reconstituted. That's the 
people aspect.
    The infrastructure aspect is whether or not the NRC would 
reconstitute a hearing facility in Nevada in order to conduct 
the adjudicatory proceeding. It is the policy of this 
Commission to conduct licensing adjudications near to the 
communities that are impacted. So in this case that would be 
perhaps a reconstitution of the hearing facility. That's one 
infrastructure piece. Another infrastructure consideration is 
the document collection that we referred to as the licensing 
support network. It is, in essence, the collection that is 
available to all parties to this adjudicatory proceeding. For 
the discovery phase and the evidentiary hearings, there's a 
common document collection.
    That was in this licensing support network. The documents 
have been captured by the Nuclear Regulatory Commission, but a 
question that would need to be addressed is, how do we 
reconstitute the system that is adequate for, I believe there's 
17 or 18 parties to this licensing proceeding, four States, 
multiple Indian Tribes, and then impacted counties in both 
California and Nevada. So we would need as an infrastructure 
piece to understand how to get an equivalent system available 
as we begin discovery and then move into the evidentiary 
hearing phase. That's the process part, is the adjudication 
itself.
    Senator Alexander. I'm out of time, but let me conclude my 
question this way: You said a moment ago that you would stand 
by your estimate of about 3 years to review the application for 
a license for the private facilities in Texas and in New 
Mexico.
    What you just described about Yucca Mountain is also toward 
the end of obtaining a license to operate Yucca Mountain; is 
that correct?
    Ms. Svinicki. These are the pieces and steps that would be 
needed to resume the process, and would lead up to a licensing 
decision for Yucca Mountain, yes.
    Senator Alexander. Do you have an estimate of how long it 
would take between here and the license for Yucca Mountain?
    Ms. Svinicki. Our staff provided an estimate of between 3 
and 5 years.
    Senator Alexander. Okay. Do you believe that's correct?
    Ms. Svinicki. It seems reasonable to me. If my colleagues 
have a view, they can weigh in. But the staff's estimate, it 
seems reasonable.
    Senator Alexander. Okay. Senator Feinstein.
    Mr. Burns. The one thing I would add, though, Senator, is 
that authorization would be for a construction authorization 
for the repository, which is the phase that under the Nuclear 
Waste Policy Act, that's in effect. That's what's pending and 
has been suspended, except for the staff work so far. So that 
is essentially the authorization at the end of that hearing 
process, assume it was favorable, would be for a construction 
authorization. It wouldn't be at that point an operation of the 
facility.
    Senator Alexander. The private facility at the end of 3 
years, it would be a license to operate; is that correct?
    Mr. Burns. It would be--yes, my understanding would be to 
construct a facility, storage facility, plus proceed toward 
operation of it.
    Senator Alexander. So it would also be to construct and 
operate in the private facility?
    Mr. Burns. For the private facility.
    Senator Alexander. After 3 years, is what you said.
    Mr. Burns. Yes.
    Senator Alexander. And you say the same thing would be 3 to 
5 years at Yucca Mountain, to construct and operate?
    Mr. Burns. For a construction authorization, because the 
Act provides for a separate operational determination. There 
would be a second process, go to operation after the 
repository----
    Senator Alexander. I understand.
    Mr. Burns. I just wanted to be clear on that.
    Senator Alexander. I appreciate your being clear.
    Let me go to Senator Feinstein.
    Senator Feinstein. I want to just point out that our 
nuclear waste bill, which we still need to introduce in this 
new session, is all voluntary. It takes approval from a 
governor, from a legislature, so that it's all voluntary. And I 
think what you were showing in these two facilities really is 
that there is room and there will be acceptance in parts of the 
country for facilities.
    I have two Yucca questions.
    In the safety evaluation, NRC identified the need for land 
control and water permits as conditions for licensing Yucca. 
Can you say more about these conditions and why they're 
important? And what if the Department of Energy cannot meet 
these conditions? And then what other issues or necessary 
conditions do you foresee?
    Ms. Svinicki. Thank you, Senator Feinstein.
    I'll be a bit cautious in my answer because issues related 
to the water rights and the withdrawal of the land are some of 
the 300 legal challenges that have been filed in the 
adjudicatory proceeding. Our Commission, of course, has a role, 
a quasi-judicial role in that proceeding.
    But you are accurate in your description that the NRC staff 
safety evaluation report noted that those two aspects, both the 
acquisition of water rights for the site, and either ownership 
of the site or permanent withdrawal of the land for this 
purpose are regulatory prerequisites to the issuance of the 
construction authorization license, and the staff's safety 
evaluation made note of that.
    Senator Feinstein. Okay. It's my understanding that you 
furnished an environmental impact statement, finding that long-
term radioactive risk to groundwater would not exceed 
environmental standards over the next million years. And I 
understand there have been more than 200 lawsuits challenging 
this and other conclusions about the long-term ability to 
safely isolate radioactive spent fuel.
    Can you describe the NRC's conclusions about long-term 
safety? And how can you have confidence in predictions about 
what will happen in the next million years?
    Ms. Svinicki. Thank you, Senator.
    It is correct that a significant number of the legal 
challenges or what we call contentions in the adjudicatory 
proceeding do revolve around these long-term performance 
questions that you raise. Again, this is something that our 
Commission in its adjudicatory capacity would sit in a quasi-
judicial role over that, should the adjudicatory proceeding be 
resumed, and it would be the NRC staff experts who in that 
proceeding would have to provide the evidence and testimony to 
defend their safety conclusions. It would not be the 
Commission's role. We would sit in ultimate judgment of whether 
or not they had satisfied the legal challenge.
    Senator Feinstein. Yes, I guess my question goes to, the 
heart of it is, if you have to do it for a million years, how 
does the Commission feel equipped to know what would happen in 
a million years?
    Ms. Svinicki. Again, as part of the adjudicatory 
proceeding, we would have an evidentiary record that would 
ultimately be built and, yes, at the end, the licensing 
determination is whether or not these questions have been 
satisfied. But that decision has not been made yet.

                    CONTINUED STORAGE OF SPENT FUEL

    Senator Feinstein. Okay. In 2014 you issued a rule on the 
environmental effects of continued spent fuel storage at 
nuclear plants. This concerns me greatly. You found that--not 
you, but the Commission found that spent fuel could be safely 
stored indefinitely at reactor sites.
    Now, essentially, it seems to me that NRC is saying that a 
permanent repository, or efforts to construct one, are not 
really necessary.
    Here's the question: How can the NRC be confident about the 
safety of waste stored 100 or 1,000 years from now at 78 
reactor sites across 33 States?
    Ms. Svinicki. Senator, the continued storage rule you 
describe was accompanied by a generic environmental impact 
statement. And in our statement of considerations that we 
publish with this regulation, we attempted to be very clear as 
a Commission that it did not express a policy preference or in 
any way endorse the desirability of extended storage of spent 
fuel at reactor sites.
    In order to meet our obligations under the National 
Environmental Policy Act, we are required or were required 
under a court decision to look at long-term and indefinite 
storage of the material. So I would characterize our conclusion 
over the very long timeframes to be it either is safe or we 
have all of the regulatory authority to require the measures 
for observation or potential repackaging to assure its safety 
over the long period, but to the extent that it created an 
impression that we don't think that disposal is important, that 
would not be consistent with what we were trying to 
communicate.
    I don't know if my colleagues have a different view.
    Mr. Burns. I would agree with the Chairman on that.
    Senator Feinstein. Well, I have serious concern over 
Southern California Edison site, which as you know is on a 
bluff, slash, cliff in a bay on the ocean, and six million 
people live right around it.
    Now, to say permanently that you're going to have all of 
that hot waste in casks or in a pool, it just defies credulity 
to me, the safety, the attack potential, the earthquake 
potential. California is a big earthquake prone State. And I 
think everywhere you go, at least within five miles, you run 
into a fault. It's a real, real issue.
    So I don't quite understand how the NRC could say that you 
can just keep it at the site, and it can be safe for ``X'' 
years.
    Ms. Svinicki. Again, Senator, we were evaluating what I'll 
perhaps term a bounding analysis, over very long timeframes, 
whether or not our regulations provided a framework adequate 
for the storage to be safe over the long-term. And it was the 
assessment of our staff and subsequently the Commission that 
the framework is adequate to provide that assurance over these 
longer time periods.
    Senator Feinstein. And what is that framework that can 
provide it for a thousand years? That's not the longest time, 
that's a relatively short time.
    Ms. Svinicki. It's the continuous monitoring of the casks 
themselves. There is continuous oversight and stewardship over 
the sites. There's monitoring of any degradation of the 
packaging over the longer-term timeframes. And should it be 
necessary, there's the power to compel repackaging or something 
that would, you know, if the packages are not holding up over 
the long timeframes, we have the authority to compel 
repackaging, should it be necessary.
    Senator Feinstein. Madam Chairman, let me ask you this: Did 
your staff take a look at earthquake probability in that area?
    Ms. Svinicki. The----
    Senator Feinstein. It's high.
    Ms. Svinicki. Yes.
    Senator Feinstein. And big earthquake probability is up. 
So, I mean, I wouldn't be content with my staff coming out with 
something that says they know what's going to happen, even 50 
years from now, with respect to an earthquake. And I think--I 
mean, something like that, based on what I know, I sure don't 
think that's safety, or safe. And I would ask you to think 
about it because, you know, if we can't guarantee that we can 
get waste out of plants, and secured, why are we going to do 
advanced modular small nuclear reactors? Then we have them in 
thousands of places all over. I mean, it makes no sense to me.
    Sorry. Thank you.

                        NUCLEAR WASTE STALEMATE

    Senator Alexander. Thank you, Senator Feinstein.
    We are either going to have to persuade the Senate to move 
ahead with Yucca Mountain or the House to move ahead with 
interim storage.
    Senator Feinstein. Yes. We've got to do something.
    Senator Alexander. So maybe we'll get that done.
    Senator Feinstein. It's been 24 years we've been doing 
this.
    Senator Alexander. Well, you and I haven't. But our country 
has.
    Senator Feinstein. Yes, well.
    Senator Alexander. No, you're right. This is an 
unacceptable stalemate, and it is a symptom of--and in my own 
view, and, obviously, Senator Feinstein's expressed herself, it 
makes no sense to me for us to take the view that if we can't 
move on one, we can't move on anything. Because we've proved 
that we have a stalemate on Yucca Mountain. It might continue 
for a while, even though I support it, even though President 
Trump supports it, even though there's money in the budget, and 
even though you are going to move ahead on it this next few 
years.
    If we can move ahead more quickly on an interim storage 
site authorized by the legislation that Senator Feinstein and 
Murkowski and I and Cantwell will introduce, or if we can move 
ahead more quickly with a properly licensed private site in 
Texas or New Mexico or somewhere else, then we should, in my 
view.

                         SMALL MODULAR REACTORS

    May I move on to small modular reactors? And I am going to 
put 7 minutes on here since we're the only two here.
    Senator Feinstein. Yes. Go ahead.
    Senator Alexander. And then we'll take whatever time you 
would like, Senator Feinstein, when your time--when I finish 
here.
    Senator Feinstein mentioned small modular reactors, and she 
and I have had extensive discussions about that, about that 
lately, over the last several years.
    The next step for the commercialization of small modular 
reactors is approval of a design certification; am I correct 
about that?
    Ms. Svinicki. Yes.
    Senator Alexander. And NuScale, which is developing such a 
reactor, submitted a design certification in December of 2016, 
correct?
    Ms. Svinicki. That's correct.
    Senator Alexander. And when will you complete your review 
of the reactor design?
    Ms. Svinicki. The NRC staff has completed its review of the 
application package and has found it complete to begin the 
review process. The staff has communicated to NuScale an 
estimated schedule of 42 months.
    Senator Alexander. 42 months from this date, or total?
    Ms. Svinicki. I think it is from the date of docketing of 
the application, which occurred, I think in the last few 
months.
    Senator Alexander. Well, that would be December 2016; is 
that----
    Ms. Svinicki. That's when the application was submitted. We 
do take the time to review to make sure that the application is 
complete prior to docketing.
    Senator Alexander. So three, three and a half years to 
review the design certification. Then once there's a design 
certification, what happens next?
    Ms. Svinicki. Well, the design application is valid to be 
referred to in a combined license application from an 
applicant, and they reference it. What I mean by that is that 
they come in and propose a specific site where that approved 
design would be constructed, and that is what we call a 
combined license application review.
    We don't currently have any combined license applications 
pending for NuScale. And, again, that can proceed concurrent 
with the review of the NuScale application. I believe you 
mentioned them as being in series. There can be some overlap in 
these reviews, but in order to reference a design, in order to 
approve the combined license application, the design 
certification needs to be approved by the end of that process.
    We do have an early site permit request that has come in 
from the Tennessee Valley Authority for the construction of 
potentially I believe it is two modules of a small modular 
reactor at the Clinch River site in Tennessee.
    Senator Alexander. Can that be considered concurrently with 
the other parts of the applications that would come before you?
    Ms. Svinicki. Yes. It can, and the staff is able to use 
basically parameters and bounding conditions in order to move 
forward. If changes are made to the design as the review of 
that is proceeding, the review of the early site permit, that 
process can accommodate that because they're looking at more 
envelope parameters for the design.
    Senator Alexander. Now, these are not advanced reactors, 
these are light-water reactor designs? The Commission is 
accustomed to dealing with light-water reactor applications, 
correct?
    Ms. Svinicki. Yes. A small modular reactor does not pose 
the uniquenesses of a truly advanced reactor design.
    Senator Alexander. I would think, though, it is an 
opportunity, since you are already familiar with this kind of 
reactor, to review your application process and look for ways, 
while maintaining your gold standard safety requirements, of 
streamlining your application or making sure that it moves 
along as rapid as it can, consistent with safety standards.
    Is there an opportunity for a fresh look at how you go 
about these different applications?
    Ms. Svinicki. Yes. And as the review proceeds, it's my 
memory that the staff has, in communicating the 42-month 
schedule, also communicated to the applicant that as the review 
proceeds, the NRC staff will look for opportunities within that 
schedule. So the NRC staff has made that commitment.
    Senator Alexander. So within that 42 months, an applicant 
could also apply for a license, and also apply for a site; is 
that correct?
    Ms. Svinicki. Yes. For example, the reactors under 
construction now in South Carolina and Georgia, the review of 
the combined license applications proceeded concurrent with the 
design certification review for the AP 1000, which is the 
reactor being constructed there. However, it is not possible to 
conclude the combined license review until the design 
certification is approved.
    Senator Alexander. In a recent discussion with Secretary 
Perry, he and I talked about forming a small working group of 
relevant agencies to identify the remaining challenges to 
bringing small modular reactors to market in the United States.
    Would the Commission be willing to appoint a representative 
to provide the Commission's perspective from that group, if 
Secretary Perry and this committee and other relevant agencies 
were involved?
    Ms. Svinicki. Certainly, our Commission would be responsive 
to any congressional direction or establishment of a group such 
as that. I would note that the NRC's experts are engaging 
beyond NuScale. They have what we call pre-application 
engagement with other reactor designers. So we aren't exclusive 
to having engagement only when we receive something for review. 
Our experts are out and about in the community I think engaging 
on these topics.

         LICENSING SMALL MODULAR REACTORS AND ADVANCED REACTORS

    Senator Alexander. Are you referring to advanced reactors 
or small reactors?
    Ms. Svinicki. Both.
    Senator Alexander. Both.
    Mr. Burns. Senator, what I'd like to add is that the NRC 
staff and the Department of Energy have held three joint 
workshops for the community that's interested in advanced 
reactor development, the most recent one I think in April, and 
over the last about 18 months or so. And the idea was to get 
folks together to talk about issues, about process, as well as 
in terms of differences in the acceptance criteria. And the 
staff has done a number of things to publish, again, working 
off of some interactions we've had with the Department of 
Energy on both framework, but also things like what changes 
might be appropriate to our general design criteria, which are 
primarily applicable to light-water reactors, but we're looking 
at those types of things. So there is some of this work that 
has been ongoing, and we've also taken advantage of learning of 
information from DOE research and the like.
    Senator Alexander. Senator Feinstein, I just have one more 
question, and then I can turn it over to you to ask whatever 
questions you would like to ask.
    Senator Feinstein. I just have a couple, and that's it.

            REGULATORY INFRASTRUCTURE FOR ADVANCED REACTORS

    Senator Alexander. I just wanted to ask, last year we 
provided $5 million to you for evaluating advanced reactors. 
You didn't ask for that money this year. How'd you use the $5 
million, or are you planning to use it in the future?
    Ms. Svinicki. To build on Commission Burns' answer, in 
addition to the workshops and other criteria and standard 
review plans that we have under development, the NRC developed 
what we called a strategy document, and then we developed a 
series of what we call implementation action plans on the 
specific topic of advanced reactors, to identify the ways in 
which we needed to develop a more detailed framework for the 
potential licensing of advanced reactors. So some of the 
funding in the current fiscal year is being used for that 
process and the action plans.
    I would note that for fiscal year 2018, although the 
request does not include any money, as we call it, off the fee 
base, meaning the type of money that was provided by the 
Committee in the current fiscal year, it would be our budgetary 
intention to continue to use fee recoverable money to engage 
with developers of advanced reactors. So that would be fee 
billable work. So although we don't have off fee-based work, we 
would intend to continue a small amount of activity engaging 
with advanced reactor designers as they might want to bring us 
things for our reaction.
    Senator Alexander. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman.
    Doesn't take long answers.

                      CONSOLIDATED INTERIM STORAGE

    San Onofre, all of nearly 4,000 used fuel assemblies will 
have been transferred to dry casks by 2019. As I understand it, 
these are already licensed, not only for storage, but for 
transportation.
    If a consolidated waste storage facility were available, 
what other steps would need to be taken by the Commission to 
allow waste to be moved from San Onofre and other closed sites?
    Ms. Svinicki. Senator, I'm not familiar with the exact 
storage technology. If I am wrong about it being certified for 
transport----
    Senator Feinstein. Can we get that answer in writing?
    Ms. Svinicki. Yes, absolutely.
    [The information follows:]

    If a consolidated waste storage facility were available, NRC would 
not need to take additional steps or actions to allow waste to be moved 
from San Onofre or other sites. NRC approved storage and transportation 
cask designs that could be used by licensees to move spent fuel are 
currently available. The NRC would follow its current regulatory 
framework to perform licensing and oversight activities to ensure the 
safe and secure operation of the storage facility including inspections 
during loading and unloading operations, as well as periodic 
inspections of the storage facility.

    Senator Feinstein. Appreciate it.
    And here's the second question: Can existing storage casks 
be transported and then used again for continuing storage?
    So your staff can answer that in writing. I'd appreciate 
it.
    [The information follows:]

    Some of the cask designs can be used for both storage and 
transportation. However, in general, individual storage canisters are 
designed to be removed from a dry cask storage system and then 
transferred into a transportation package for shipment. These casks can 
be placed back into storage at a new location, provided the licensee 
meets the applicable requirements. Specifically, prior to placing the 
cask back into storage, the licensee must ensure the storage cask will 
continue to meet the conditions set forth in the Certificate of 
Compliance for that cask design. The NRC has the regulatory framework 
and oversight in place to ensure the protection of public health and 
safety during these operations.

    Senator Feinstein. I understand at least two companies are 
pursuing the licensing of spent fuel storage facilities, 
capable of taking fuel from commercial reactors. Both have now 
submitted license applications to you, though I understand one 
has temporarily delayed consideration of its application.
    What are the steps in evaluating such an application?
    Ms. Svinicki. The NRC's review has two fundamental 
elements. One is a safety determination against our 
regulations. There's a series of safety cases or safety 
justifications that need to be developed by the submitter of 
the application. The staff will do confirmatory analyses and 
perhaps ask for follow-up analyses or ask for further 
justification for the safety conclusions that need to be 
reached.
    The other significant prong is there is an environmental 
consideration that goes on under the National Environmental 
Policy Act. So it is safety and environmental are the two big 
elements.
    Senator Feinstein. Is there a timeframe for these to 
happen?
    Ms. Svinicki. Yes. We estimate it would be a 3-year review.
    Senator Feinstein. Okay.
    Mr. Baran. Senator, can I just add, just for the point of 
clarification.
    Senator Feinstein. Yes.
    Mr. Baran. So the safety and environmental reviews would be 
going on at the same time, and the staff estimates that would 
take 3 years. Just so we're clear from the earlier 
conversation, it is possible that someone would bring an 
adjudicatory challenge to anything that was done in the safety. 
And that would be beyond the 3-year plan.

                  OVERSIGHT OF DECOMMISSIONING PLANTS

    Senator Feinstein. I understand. Yes. Thank you.
    It's my understanding that one of the objectives of your 
Project Aim is to right size the agency after hiring increases 
for the nuclear Renaissance that didn't come to pass. However, 
there are now 19 shutdown reactors in the United States, with 
at least another 8 over the next several years. All told, 
that's roughly the same number, as the once expected number of 
new reactors.
    Won't this surge in shutdowns necessitate more staff to 
oversee utilities' decommissioning?
    Ms. Svinicki. Senator, our experience is that when a 
reactor moves from operating status to decommissioning status, 
we see a slight diminishment in the number of resources that we 
need to provide for its oversight. There's a slight shifting in 
expertise because we go from the operating reactor experts to 
the decommissioning experts. We are working that into our 
budget and resourcing forecasts, those shutdowns, so we are 
making those shifts and adjustments.
    Senator Feinstein. Okay. Thank you.

                         SMALL MODULAR REACTORS

    One SMR (Small Modular Reactors), while the Chairman's 
here, question. I understand that the design under 
consideration at NRC has the reactors and the spent fuel pools 
underground. Is this aspect considered to be a safety feature 
of the design, to put the spent fuel pools underground?
    Ms. Svinicki. Our NRC staff may have, for the record, a 
better answer than this, but----
    Senator Feinstein. Could someone answer it, if they're 
here?
    Ms. Svinicki. I don't think we have the relevant experts, 
but my sense of this as a safety attribute is that it provides 
both challenges for our conforming safety analysis and positive 
attributes. The positive attributes about an underground nature 
is that if you were to have an aircraft impact or some sort of 
event, or an extreme natural hazard, facilities that are a 
little bit underground or underground provide some barrier then 
to--and mitigate a bit of an extreme natural event. But you do 
also then need to look at the integrity of the structure 
itself.
    Senator Feinstein. How about leaks? Or in California, for 
example, you have an earthquake fault virtually every five 
miles away. Anywhere you stand, there's some kind of fault.
    Ms. Svinicki. So for the safety analysts, they're looking 
at both, I would say, the plus and the minus. Having some part 
of the structure underground is enhancing under certain 
accident scenarios, but it also then must--we must assure 
ourselves of the integrity of the structure for the issues that 
you describe.
    Senator Feinstein. Well, so you could open these spent fuel 
pools that are underground?
    Ms. Svinicki. It might be better if we provided a diagram 
or a description for the record, but my understanding is 
they're accessible.
    [The graphics follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Feinstein. We will have these modulators, and I, 
for one, would really like to know what kind of jeopardy they 
present. And, you know, everybody's saying, well, put it 
underground, it's great. Well, what's underground isn't seen. 
And what isn't seen is generally not dealt with. And that's a 
problem.
    Ms. Svinicki. I think these areas are completely 
accessible, it is just that the structure is constructed to 
partially be below the ground level. That's my understanding. 
But we can certainly provide a greater design description for 
the record.
    Senator Feinstein. Yes, because my understanding is that 
you have to have, to be cost--to be economic, you're going to 
have to group five of them together. And if that's the case, 
you've got five spent fuel pools in the area.
    Mr. Baran. Senator, can I just add, when we're talking 
about, you know, for a particular design certification 
application a 42-month review, the safety review and the 
environmental review, that three-and-a-half year review is 
going to be looking at safety questions exactly like the ones 
you're raising, right? Those are going to be questions that----
    Senator Feinstein. Okay.
    Mr. Baran [continuing]. The NRC staff would look at.
    Senator Feinstein. So you're saying nothing's going to be 
approved until the review is complete?
    Mr. Baran. Absolutely.
    Senator Feinstein. Okay. Good.
    Mr. Burns. The thing I would add is all of our reviews, one 
of the key areas in our review process is to look at things 
like seismology, geology, and hydrology. Because as you 
indicate, one of the things we need to be careful about is what 
are the consequences.
    Senator Feinstein. Yes.
    Mr. Burns. What are the extra barriers and those types of 
things. So that is part of the review that my colleagues have 
tried to discuss.

         SAN ONOFRE NUCLEAR GENERATING STATION DECOMMISSIONING

    Senator Feinstein. Let me just go to San Onofre 
decommissioning. I understand they are moving ahead with 
expanding their dry spent fuel storage area, and their plans 
include demolishing the reactor buildings on an expedited 
timeframe, potentially concluding work in 2027. It's my 
understanding that NRC has issued all necessary approvals, and 
the utilities have selected contractors. Physical 
dismantlement, I'm told, could begin soon.
    Would you confirm that the NRC will continue to inspect the 
site and oversee the decommissioning program to ensure safety?
    Ms. Svinicki. Yes, Senator.
    Senator Feinstein. What are the biggest risks, in your 
view, to completing the decommissioning process in a safe and 
timely manner?
    Ms. Svinicki. I would note that you used a date of 2027 for 
the demolishment of facilities. I had prepared for me the date 
of 2030.
    Senator Feinstein. Concluding it.
    Ms. Svinicki. So could we respond, for the record----
    Senator Feinstein. Yes.
    Ms. Svinicki [continuing]. Because it is slightly different 
than the date that was given to me.
    Voice. The difference is the finishing of the 
decommissioning and the building, and then the finishing of the 
final paving over of the surface. So 2030 is fine.
    Senator Feinstein. My staffer was saying 2030 is fine. The 
difference is in the time to complete certain things.
    Ms. Svinicki. In terms of the potential things that would 
jeopardize that schedule, it's difficult to say. There are a 
lot of private contractors that are utilized to perform this 
work. Some of the schedule uncertainty I think would arise from 
business aspects of the decommissioning more than the technical 
work. There have been decommissionings that have been, of 
course, successfully completed in the United States. So I don't 
identify, as I sit here today, technical barriers to the nature 
of the work. It has been done at other sites, even at Humboldt 
Bay in California, is a site that is more substantially 
decommissioned.

                           THREE MILE ISLAND

    Senator Feinstein. Yes. I would like, if I could, to give 
you the copy of a paper, the title of which is Possible 
Correlation Shown Between Three Mile Island Nuclear Accident 
and Thyroid Cancers. And I'd just like you to take a look at 
it. And there's no definitive proof, but the geography makes it 
worth looking at.
    I just--we've got so many people living in such a close 
proximity to these two big reactors. I want to do everything I 
can to see that this decommissioning is without a hitch. You 
know, I think what the company went through with the two new 
steam generators, which weren't like for like, but supposedly 
improved the steam generators, effectively did not, and they 
had one reactor, which had a lot of holes, and then the second 
reactor began.
    And there was some radioactivity released, not a lot, thank 
God. But I really want to see that decommissioning go in the 
safest possible way for the people in the area.
    Ms. Svinicki. Senator, on the study that relates to Three 
Mile Island and thyroid cancer, that was very recently 
released, but our NRC experts have that under review at the 
current time.
    Senator Feinstein. Oh, good.
    Ms. Svinicki. But we're happy to take anything that you 
want us to look at. But the study itself we are looking at.
    Senator Feinstein. Well, maybe take this, and if you could, 
make your findings available to us. We'd appreciate it very 
much.
    Ms. Svinicki. Yes, Senator. Thank you.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Feinstein.I will hand 
this to you, but may I ask this question: The Commission has 
almost continuously monitored the Three Mile Island area since 
the accident 40 years ago; is that correct?
    Ms. Svinicki. I don't know that we have our own NRC 
monitoring, but we have--there have been a series of studies 
that have been conducted by like the University of Pittsburgh 
and other medical centers, and we certainly have engaged on all 
of those studies, so that's why we have this study under 
review.
    Senator Alexander. Let me ask this way: Have those studies 
found that anyone was hurt as a result of the Three Mile Island 
accident?
    Ms. Svinicki. The studies that have been done, and they're 
principally epidemiological studies in public health 
institutes, have not shown a correlation between populations 
who resided around Three Mile Island at the time of the 
accident, and they have not shown any correlation with 
increased thyroid cancer. That's why we're giving this a 
careful look.
    Senator Alexander. Okay. Thank you.
    I want to thank the Commissioners for being here today.
    Thanks, Senator Feinstein.
    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time, if they would like.
    Subcommittee requests, all responses to questions for the 
record be provided within 30 days of receipt.

                          SUBCOMMITTEE RECESS

    Thanks very much for being here. The Committee will stand 
adjourned.
    [Whereupon, at 3:54 p.m., Wednesday, June 7, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
